No.

20-6965

IN THE
SUPREME COURT OF THE UNITED STATES

Bradley B. Miller

— PETITIONER

(Your Name)
VS.

Virginia Talley Dunn

— RESPONDENT(S)

PROOF OF SERVICE
Bradley B. Miller
, do swear or declare that on this date,
April 28
, 20 AL, as required by Supreme Court Rule 29 I have
served the enclosed
PETITION for REHEARING
on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Virginia Talley Dunn, 7147 Azalea Lane, Dallas, Texas 75230
The State of Texas, c/o Asst. AG Rande Herrell, AGO, P.O. Box 12548, Austin, TX 78711-2548
Dallas County District Attorney John Creuzot, 133 N. Riverfront Blvd., LB 19, Dallas, TX 75207
Dallas County Domestic Relations, Matthew Garcia, 600 Commerce St., St 128, Dallas, TX 75202
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

April 28

(Signature)

